                                                  NAnONAL SCIENCE FOUNDA nON
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGA nONS

                                            CLOSEOUT MEMORANDUM

 Case Number: 109110064                                                                      Page 1 of 1



          We initiated an investigation based on an allegation i that an individual2 may have improperly
          claimed and received payments designated for dependent benefits under an NSF award. 3

          Our investigation found the individual appeared to have submitted a false claim for dependent
          benefits under an NSF award. The individual stated she did not intend to submit a false claim
          and refunded the amount4 in question to NSF. NSF removed the remaining dependent benefits
          from the individual's award. Accordingly, this investigation is closed.




NSF OiG Form 2 (11102)
